               ‐ 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     The State of Colorado
                     Did Not Fully Assure That
                     Funds Intended to Treat
                     Mining Wastes and Remove
                     Contaminants from Water
                     Were Effectively Spent
                     Report No. 14-R-0032               November 19, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Abbreviations

A/E               Architectural Engineer
CA                Cooperative Agreement
CDPHE             Colorado Department of Public Health and Environment
CERCLA            Comprehensive Environmental Response, Compensation and Liability Act
CFR               Code of Federal Regulations
CMGC              Construction Manager General Contractor
EPA               U.S. Environmental Protection Agency
IPA               Independent Public Accounting
RFP               Request for Proposal



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General Hotline
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2431T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              14-R-0032
                                                                                                     November 19, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              The State of Colorado Did Not Fully Assure That
                                    Funds Intended to Treat Mining Wastes and Remove
The U.S. Environmental
Protection Agency (EPA)             Contaminants from Water Were Effectively Spent
awarded American Recovery
and Reinvestment Act                 What the IPA Auditor Found
cooperative agreement (CA)
2S-97842001 to the Colorado         The IPA found that CDPHE generally complied with 	         CDPHE did not fully
Department of Public Health         Colorado’s state procurement policies and procedures	      comply with the CFR,
and Environment (CDPHE).            as required by Code of Federal Regulations (CFR)           resulting in $2,593,495
                                    under 40 CFR §35.6550(a). The IPA also found that          of questioned costs
The Office of Inspector General
                                                                                               claimed under the CA.
(OIG) contracted with Ollie         CDPHE substantially complied with 40 CFR Part 35, 

Green & Company, an                 Subpart O. The IPA determined that CDPHE did not 

independent public accounting       always comply with the cost or price analysis requirements and did not include 

(IPA) firm, to audit the            language in bid proposals designating the date, time and place of bid openings,

agreement. The objectives of        as required by State of Colorado Procurement Rule R-24-103-202a-08(b). 

the audit were to determine         In addition, the IPA found CDPHE did not always ensure that 40 CFR Part 35, 

whether CDPHE’s                     Subpart O, required language was included in bid proposals and contracts. 

procurements and use of force
account under the CA complied       The IPA is responsible for the content of the audit report. The OIG performed the 

with the applicable federal         procedures necessary to obtain reasonable assurance about the IPA’s 

requirements and whether the        independence, objectivity, qualifications, technical approach and audit results. 

objectives of the CA were met.      Having done so, the OIG accepts the IPA’s conclusions and recommendations.


This report addresses the            Recommendations and Planned Corrective Actions
following EPA themes:
                                    The IPA’s report recommended that the Region 8 Regional Administrator recover
  Making a visible difference      the questioned costs of $2,593,495, unless CDPHE provides documentation to
   in communities across the        demonstrate that the prices for the contracts and subcontracts in question are fair
   country.                         and reasonable. The IPA’s report also recommended the region require CDPHE
  Protecting water: A              to implement written procedures and controls, to ensure compliance for all future
   precious, limited resource.      request for proposals and contracts under 40 CFR, Subpart O, CAs, by requiring:
  Launching a new era of
   state, tribal and local             A cost or price analysis is conducted in accordance with Subpart O
   partnerships.                        requirements.
                                       The date, time and place of all bid openings are designated in accordance
                                        with state of Colorado procurement rules.
                                       Subpart O contract language is included.

                                    In addition, the IPA’s report recommended that the region require CDPHE to
For further information,            modify the construction manager contractor contract and the architectural and
contact our public affairs office   engineering contracts awarded under the CA to include the 10-year records
at (202) 566-2391.                  retention requirement under 40 CFR §35.6705(b) and the contract language
                                    requirement under 40 CFR §35.6550.
The full report is at:
www.epa.gov/oig/reports/2014/       CDPHE agreed with the finding regarding omission of required contract language,
20131119-14-R-0032.pdf              but has not proposed any corrective action. Region 8 did not provide a response
                                    to the draft report.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                          November 19, 2013

MEMORANDUM

SUBJECT: 	 The State of Colorado Did Not Fully Assure That Funds Intended to Treat
           Mining Wastes and Remove Contaminants from Water Were Effectively Spent
           Report No. 14-R-0032

FROM:	         Arthur A. Elkins Jr.

TO:	           Shaun McGrath, Regional Administrator
               Region 8

This memorandum transmits the final report for the audit of American Recovery and Reinvestment Act
cooperative agreement 2S-97842001 awarded to the Colorado Department of Public Health and
Environment.

The independent public accounting (IPA) firm Ollie Green & Company conducted this audit on behalf
of the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). The audit
was required to be conducted in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. The IPA is responsible for the audit report and the
conclusions expressed in that report. The OIG performed the procedures necessary to obtain a
reasonable assurance about the IPA’s independence, objectivity, qualifications, technical approach and
audit results. Having done so, OIG accepts the IPA’s conclusions and recommendations.

The IPA’s full report is attached. The OIG also prepared a status of recommendations and potential
monetary benefits table that summarizes the findings the IPA has identified and the corrective actions it
recommends. The recommendations represent the opinion of the IPA and the OIG, and do not
necessarily represent the final position of the EPA. EPA managers, in accordance with established audit
resolution procedures, will make a final determination on matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide us your proposed management
decision on the findings and recommendations contained in this report before you formally complete
resolution with the recipient. Your proposed management decision is due in 120 days, or on
March 19, 2014. To expedite the resolution process, please also email an electronic version of your
management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum commenting on
your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your response
contains such data, you should identify the data for redaction or removal. We have no objection to the
further release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
         Audit of American Recovery and 

      Reinvestment Act Funded Cooperative 

Agreement No. 2S-97842001 awarded to the Colorado 

   Department of Public Health and Environment 

September 19, 2013


Mr. Robert Adachi, Director of Forensic Audits
U.S. Environmental Protection Agency
Office of Inspector General
San Francisco, CA 94105

Mr. Adachi:

Please find attached a copy of the final audit report of our Recovery Act audit of Cooperative
Agreement No. 2S-97842001 awarded to Colorado Department of Public Health (CDPHE) on
May 1, 2009. Our audit was conducted in accordance with the terms and conditions of
Contract No. EP-G12H-00489 dated August 22, 2012 and Government Auditing Standards,
Revised 2011.

We appreciate the opportunity to have worked with the U.S Environmental Protection
Agency, Office of Inspector General. Please contact me with any questions you may
have.


Sincerely,




Ollie Green, MBA, CPA
Managing Partner
Audit of American Recovery and Reinvestment Act                                                                                      14-R-0032
Cooperative Agreement No. 2S-97842001 Awarded to the
Colorado Department of Public Health and Environment



                                        Table of Contents
   Introduction .................................................................................................................          1


        Purpose...................................................................................................................         1

        Background .............................................................................................................           1      

        Scope and Methodology .........................................................................................                    1


   Results of the Audit ....................................................................................................               3


        Procurement ............................................................................................................           3


              CDPHE Did Not Always Comply With Cost or Price Analysis Requirements. ..                                                     3


              CDPHE Did Not Include Language in Bid Proposals Designating the Date, 

              Time and Place of Bid Openings .....................................................................                         5


              CDPHE Did Not Always Ensure That Required Language Was Included in 

              Bid Proposals and Contracts .............................................................................                    5


        Force Account Activity .............................................................................................               9


        Cooperative Agreement Objectives ........................................................................                          9


   Recommendations ......................................................................................................                  9


   Agency and Recipient Comments .............................................................................                             10 


   Ollie Green & Company Response............................................................................                              11 



Appendix
   A     CDPHE’s Response to the Draft Report .............................................................                                13 

                                    Introduction 


Purpose
            The purpose of our audit was to determine whether the Colorado Department of
            Public Health and Environment (CDPHE) procurements and the use of force
            account under Cooperative Agreement (CA) 2S-97842001 complied with Title 40
            Code of Federal Regulations (CFR) Part 35, Subpart O, requirements. The
            purpose also included determining whether the objectives of the cooperative
            agreement (CA) were met.

Background
            CDPHE was awarded CA No. 2S-97842001 for $17 million by the U.S.
            Environmental Protection Agency (EPA) on May 1, 2009, for remediation of the
            Summitville Mine Superfund site. The total amount of the CA is $18,888,888.
            The federal share is 90 percent or $17 million funded with American Recovery
            and Reinvestment Act (Recovery Act) monies and the state contribution is
            10 percent or $1,888,888. The period of performance was from July 31, 2009,
            through September 30, 2012. Funding for this CA was part of the $600 million
            Superfund hazardous site cleanup funded by the Recovery Act.

Scope and Methodology

            Our Recovery Act performance audit covered the period from July 31, 2009,
            through September 30, 2012. We conducted our fieldwork at CDPHE in Denver,
            Colorado, from October 1 to October 5, 2012, and from December 10 to
            December 13, 2012. The scope of our audit was limited to determining whether:

                  CDPHE’s procurements under the CA were conducted in accordance with
                   Title 40 CFR Part 35, Subpart O.
                  CDPHE’s force account complied with Title 40 CFR Part 35, Subpart O;
                  The objectives of the CA were met.

            Our scope included the review of CDPHE’s procurement processes and controls
            related to Recovery Act CA transactions. Our work included reviewing CDPHE’s
            solicitation, evaluation, tabulation and award processes related to CA
            2S-97842001 procurements. CDPHE used a Construction Manager General
            Contractor (CMGC) vehicle to administer and perform the work. CDPHE
            indicated that this contracting method was designed to increase the speed of
            project delivery and reduce inherent risk and increase flexibility for the recipient.
            When the CMGC method is used, the CMGC is allowed to bid on subcontract
            requirements. CDPHE staff said the CMGC is one of the Integrated Project
            Delivery methods approved by the Colorado State Legislature in 2007.


14-R-0032                                                                                       1
            Our audit methodology included conducting structured interviews and discussions
            with personnel at CDPHE and the CMGC to gain an understanding about the
            internal controls, processes, systems and procedures used to capture measure and
            report CDPHE’s procurements and force account activity and how CDPHE met
            the objectives of the CA.

            We requested, received and reviewed documentation from CDPHE to assess
            CDPHE’s procurement processes and force account activity. This documentation
            included the State’s procurement policies and procedures and a written
            description of the internal controls that were in place during the audit period
            designed to detect and/or prevent potential errors related to the procurement
            process. We reviewed procurement documentation for the two prime contracts
            under the CA and 14 judgmentally selected subcontracts to ensure compliance
            with federal procurement regulations and state policies and procedures. We also
            requested, received and reviewed the Notice of Final Completion, Notice of
            Approval of Occupancy, contractor invoices and other documentation required to
            verify that the program objectives were met.

            A performance audit includes gaining an understanding of internal controls
            considered significant to the audit objectives, testing controls, and testing
            compliance with significant laws, regulations and other requirements. For this
            engagement, we obtained an understanding of CDPHE’s procurement processes
            and internal controls. The testing of internal controls over this process was not
            determined to be significant to our audit objectives.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provided a reasonable basis for our findings and
            conclusions based on our audit objectives.




14-R-0032                                                                                       2
                            Results of the Audit 


Procurement

            We found that CDPHE generally complied with Colorado’s state procurement
            policies and procedures, as required by 40 CFR § 35.6550(a), which referenced
            40 CFR § 31.36(a). We also found substantial compliance with 40 CFR Part 35,
            Subpart O. However, we found that:

               	 CDPHE did not always comply with cost or price analysis requirements.

               	 CDPHE did not include language in bid proposals designating the date,
                  time and place of bid openings.

               	 CDPHE did not always ensure that required language was included in bid
                  proposals and contracts.

      CDPHE Did Not Always Comply With Cost or Price Analysis Requirements

            CDPHE did not always comply with the federal and state requirements for cost or
            price analysis when awarding contracts, contract modifications and subcontracts.
            Our audit found that CDPHE awarded a follow-on contract for architectural
            engineering (A/E) services without documented cost or price analysis. CDPHE
            also issued two contract modifications to the CMGC contractor without cost or
            price analysis. In addition, CDPHE’s CMGC contractor awarded a subcontract
            without cost or price analysis. These practices did not comply with the federal
            procurement requirements under 40 CFR Part 35, Subpart O and state regulations.
            These instances of noncompliance occurred because CDPHE did not have
            adequate controls to ensure compliance with both federal and state procurement
            requirements. In addition, CDPHE incorrectly determined that competition had
            been adequate for the contract modifications and subcontract. Due to the lack of
            cost or price analysis, CDPHE is unable to demonstrate that the prices for the
            contract, contract modifications and subcontract were fair and reasonable. As a
            result, we question $2,593,495 claimed under the CA.

            Architectural Engineer Contract

            CDPHE awarded an $806,250 follow-on contract for architectural engineering
            services in 2009 and did not maintain the required cost analysis documentation.
            CDPHE indicated that the contractor was originally awarded a competitive
            contract for A/E services for this project in 2002 and provided A/E services until
            funding ended in March 2004. CDPHE then awarded a follow-on contract to the
            same A/E firm for $806,250 in 2009 with Recovery Act funding to complete this
            project. CDPHE indicated that it performed a perfunctory cost analysis for the
            2009 A/E procurement to identify the benefits of the procurement but did not

14-R-0032                                                                                        3
            maintain the documentation. Title 40 CFR § 35.6705 requires the recipient to
            maintain all records for 10 years following submission of the final Financial
            Status Report. As a result, we question $806,250 claimed under the CA for A/E
            costs.

            Modifications to the CMGC Contract

            CDPHE issued two contract modifications with Recovery Act funding with a total
            amount of $1,542,000 to the CMGC contract without cost or price analysis. This
            work was bid out as subcontract work and the CMGC contractor was permitted to
            compete. As the CMGC contractor was the only responsive bidder, a contract
            modification was issued to the CMGC contractor for the work. Title 40 CFR §
            35.6585(a) and State of Colorado Procurement Manual Chapter III Sections 9 and
            10 require the recipient to conduct and document a cost or price analysis in
            connection with every procurement action, including contract modifications.
            According to CDPHE, since there were multiple bidders, the work was considered
            competitively bid and cost analysis would not be necessary. We disagree with
            CDPHE. Even though bids were received from multiple sources, the only
            responsive bidder was the CMGC contractor. All other bids were incomplete;
            therefore, CDPHE and the CMGC could not have used those incomplete bids to
            justify the fairness and reasonableness of the price for the contract modifications.
            Title 40 CFR § 35.6565(d) (1) (iv) allows for noncompetitive procurement if
            competition is determined to be inadequate after solicitation from a number of
            sources. However, 40 CFR § 35.6565(d) (2) requires a cost analysis to be
            conducted for such procurement. As a result, we question $1,542,000 claimed
            under the CA for modifications to the CMGC contract.

            Subcontract

            The CMGC contractor issued a subcontract with Recovery Act funding in the
            amount of $245,245 to the only responsive bidder without cost or price analysis.
            Title 40 CFR § 35.6565(d) (2) requires a cost analysis to be conducted when
            using noncompetitive procurement. State of Colorado Procurement Manual
            Chapter III Sections 9 and 10 require grantees and subgrantees must perform a
            cost or price analysis in connection with every procurement action. According to
            CDPHE, since there were multiple bidders, the work was considered
            competitively bid and cost analysis would not be necessary. We disagree with
            CDPHE. Even though bids were received from multiple sources, the only
            responsive bidder was the winning subcontractor. All other bids were incomplete;
            therefore, CMGC could not have used those incomplete bids to justify the fairness
            and reasonableness of the price of the subcontract. Title 40 CFR § 35.6565(d) (1)
            (iv) allows for noncompetitive procurement if competition is determined to be
            inadequate after solicitation from a number of sources. However, 40 CFR §
            35.6565(d) (2) requires a cost analysis to be conducted for such procurement. As
            a result, we question $245,245 claimed under the CA for the subcontract costs.



14-R-0032                                                                                     4
      CDPHE Did Not Include Language in Bid Proposals Designating the Date,
      Time and Place of Bid Openings

            Our audit could not determine that CDPHE had included language in its Request
            for Proposals (RFP) designating the date, time and place where the Bids would be
            publicly opened. State of Colorado Procurement Rule R-24-103-202a-08 (b)
            specifies that “all bid openings shall be open to the public…after the time, and at
            the place, designated in the Invitation for Bids”. Our audit identified the CMGC
            contract, six subcontracts and eight contract modifications for which the RFPs did
            not include date, time and place of bid opening.

            CDPHE indicated that advertisements and notifications included date and place to
            deliver the bid proposal but did not include the actual opening time. Our review of
            the RFP did not find the date, time or place of the bid opening. CDPHE provided
            no evidence that designated the date, time and place of the bid opening. These
            instances of noncompliance occurred because CDPHE did not have adequate
            controls in place to ensure that the date, time and place for bid opening are
            included in its bid proposals. As a result, bidders were uninformed as to the bid
            opening information and the required transparency in the procurement process
            was not achieved.

      CDPHE Did Not Always Ensure That Required Language Was
      Included in Bid Proposals and Contracts

            CDPHE did not ensure that language required by Title 40 CFR Part 35, Subpart
            O, was included in all bid proposals, prime and subcontracts. Our audit found five
            instances where required bid proposal and/or contract language were omitted.
            To conduct our work, we requested, received and reviewed a judgmental sample
            of bid proposals and contract awards to determine compliance with the language
            requirements of Title 40 CFR 35, Subpart O. Our audit found that language
            related to the following requirements was omitted from bid proposals and
            contracts:

                  Potentially Responsible Party Relationships (40 CFR §
                   35.6550(b)(1)(i),(ii)&(iii))
                  Contractor Data (40 CFR § 35.6550(b)(2)(ii)(A))
                  Employment Language (40 CFR § 35.6550(b)(2)(ii)(B))
                  Certification of Independent Price Determination (40 CFR § 35.6550(b)(3))
                  Ten (10) Year Records Retention Requirement (40 CFR § 35.6705(b))




14-R-0032                                                                                     5
              See detailed findings below:


            Potentially Responsible Party Relationships language required by
            Title 40 CFR § 35.6550.

               Our audit found that bid proposals submitted by the CMGC contractor and the
               A/E contractor omitted the required Potentially Responsible Party Relationships
               language required by Title 40 CFR § 35.6550.

               Title 40 CFR § 35.6550(b) (1) (i), (ii) and (iii) require the following disclosures in
               bid proposals:

                  (i) Information on its financial and business relationship with all Potentially
                      Responsible Parties at the site and with the contractor's parent companies,
                      subsidiaries, affiliates, subcontractors, or current clients at the site.
                      Prospective contractors under a Core Program Cooperative Agreement
                      must provide comparable information for all sites within the recipient's
                      jurisdiction. (This disclosure requirement encompasses past financial and
                      business relationships, including services related to any proposed or
                      pending litigation, with such parties);

                  (ii) Certification that, to the best of its knowledge and belief, it has disclosed
                       such information or no such information exists; and

                  (iii)A statement that it shall disclose immediately any such information
                       discovered after submission of its bid or proposal or after award. The
                       recipient shall evaluate such information and if a member of the contract
                       team has a conflict of interest which prevents the team from serving the
                       best interests of the recipient, the prospective contractor may be declared
                       non-responsible and the contract awarded to the next eligible bidder or
                       offeror.

               The CDPHE audit coordinator indicated that CDPHE concurs with this finding
               and said that it appears that CDPHE failed to include this language as part of the
               procurement. He also indicated that typically, the EPA grant funded contracts
               issued by CDPHE contain an exhibit outlining all of the federal grant
               requirements, including language regarding potentially responsible party
               relationships. Our audit found that this instance of noncompliance occurred
               because CDPHE did not have adequate controls in place to ensure that PRP
               language is included in all bid proposals. As a result of these omissions, CDPHE
               has no assurance that the two contractors had no potentially responsible party
               relationships under this CA.




14-R-0032                                                                                              6
            Contractor Data Language Required by 40 CFR § 35.6550(b) (2) (ii) (A).

               Our audit found that the contracts awarded to the CMGC contractor and the A/E
               contractor did not include contractor data language required by 40 CFR §
               35.6550(b) (2) (ii) (A). Title 40 CFR § 35.6550(b) (2) (ii) (A) requires the
               following disclosure in contracts:

                  The contractor shall not provide data generated or otherwise obtained in the
                  performance of contractor responsibilities under a contract to any party other
                  than the recipient, the EPA, or its authorized agents for the life of the contract
                  and for a period of five years after completion of the contract.

               The CDPHE audit coordinator indicated that this language is typically included in
               the EPA grant funded contracts as an exhibit. However due to an oversight by
               CPDHE, the federal requirements exhibit was not included in the contract. He
               also indicated that CDPHE seems to have substituted an exhibit that outlines
               specific Recovery Act requirements rather than including both the federal
               requirements and Recovery Act requirements as separate exhibits. Finally, he
               indicated that this language has been included in past contracts and will be
               included in future contracts. Our audit found that this instance of noncompliance
               occurred because of a lack of internal controls to ensure that contractor data
               language is included in all contracts. As a result of this departure from the
               contractor data requirements of 40 CFR § 35.6550(b) (2) (ii) (A), CDPHE had
               no assurances that contractor data will not be provided to unauthorized parties.



            Employment Language Required by 40 CFR § 35.6550(b) (2) (ii) (B).

               Our audit found that contracts awarded to the CMGC contractor and the A/E
               contractor did not include the Employment Language required by 40 CFR §
               35.6550(b) (2) (ii) (B). Our audit also found that this language was omitted from
               six subcontracts and eight modifications to the CMGC contract where the CMGC
               was competitively awarded subcontract work.

               Title 40 CFR § 35.6550(b) (2) (ii) (B) requires the following contract disclosure:

                  The contractor shall not accept employment from any party other than the
                  recipient or federal agencies for work directly related to the site(s) covered
                  under the contract for five years after the contract has terminated. The
                  recipient agency may exempt the contractor from this requirement through a
                  written release. This release must include the EPA’s concurrence.




14-R-0032                                                                                           7
               The CDPHE audit coordinator indicated that this language is usually included in
               the EPA grant funded contracts but was not in this case due to an oversight. Our
               audit found that this instance of noncompliance was due to a lack of internal
               controls related to contract disclosure requirements. As a result, CDPHE had no
               assurances that the employment requirements of Title 40 CFR § 35.6550(b) (2)
               (ii) (B), will be followed.


            Certification of Independent Price Determination Language Required by
            40 CFR § 35.6550(b) (3).

               Our audit found that the bid proposals for the CMGC contractor and the A/E
               contractor did not include the Certification of Independent Price Determination
               language as required by 40 CFR § 35.6550(b) (3).

               Title 40 CFR § 35.6550(b) (3) requires the following:

                  The recipient must require that each contractor include in its bid or proposal a
                  certification of independent price determination. This document certifies that
                  no collusion, as defined by federal and state antitrust laws, occurred during
                  bid preparation.

               The CDPHE audit coordinator indicated that this requirement is usually included
               in a contract exhibit outlining federal requirements as opposed to being part of the
               requirements for bid proposals. He also indicated that this language was not
               included in either contract due to an oversight by CDPHE. Our audit found that
               this instance of noncompliance occurred because CDPHE did not have controls in
               place to ensure that independent price determination language was always
               included in bid proposals. As a result, CDPHE had no assurance that bid prices
               were determined independently without collusion.



            Ten (10) Year Records Retention Requirement Language Required by
            40 CFR § 35.6705(b)

               Our audit found that CDPHE did not include the 10 year records retention
               requirement per 40 CFR § 35.6705(b) in the CMGC contract. Instead, the CMGC
               contract specified only a three (3) year records retention period. In addition,
               CDPHE did not include the records retention requirement in the A/E contract,
               contrary to 40 CFR § 35.6705(b).

               Title 40 CFR § 35.6705(b) requires the following:

                  The recipient must maintain all records for 10 years following submission of
                  the final Financial Status Report unless otherwise directed by the EPA award


14-R-0032                                                                                         8
               official, and must obtain written approval from the EPA award official before
               destroying any records. If any litigation, claim, negotiation, audit, cost
               recovery, or other action involving the records has been started before the
               expiration of the ten-year period, the records must be retained until
               completion of the action and resolution of all issues which arise from it, or
               until the end of the regular ten-year period, whichever is later.

            The CDPHE audit coordinator indicated that this language is usually included in
            the EPA grant funded contracts but was not in this case due to an oversight by
            CDPHE. Our audit found that these instances of noncompliance occurred because
            CDPHE did not have controls in place to ensure that the 10-year records retention
            language is included in all contracts. As a result, CDPHE has no assurances that
            the two contractors are retaining their CA records for the required 10-year period.


Force Account Activity

            Title 40 CFR § 35.6500(a) defines force account work as “the use of the
            recipient’s own employees or equipment for construction, construction-related
            activities (including architecture and engineering services), or repair or
            improvement to a facility.” Our audit found that CDPHE had no force account
            activity related to the CA.

Cooperative Agreement Objectives

            The objective of the CA was to construct the Summitville Water Treatment
            Facility. The period of performance was from July 31, 2009 to September 30,
            2012. Our audit found that CDPHE completed the construction of the Water
            Treatment Plant in accordance with requirements of the CA.

Recommendations:

            We recommend that the Regional Administrator, Region 8:

               1.	 Require CDPHE to reimburse the EPA $2,593,495 ($806, 250 +
                   $1,542,000 + $245,245) for the A/E contract, two CMGC contract
                   modifications and one subcontract where cost analyses were not provided
                   for all procurements as required by Title 40 CFR § 35.6585(a) and 40 CFR
                   § 35.6565(d) (2), unless CDPHE provides documentation to demonstrate
                   that the prices for these contracts and subcontracts are fair and reasonable.

               2.	 Require CDPHE to implement written procedures and controls to ensure
                   that a cost or price analysis is conducted for each future noncompetitive
                   contract awarded in accordance with the requirements of Title 40 CFR §
                   35.6585(a) and 40 CFR § 35.6565(d) (2) and to retain copies of all cost or


14-R-0032                                                                                     9
                   price analyses conducted and other CA records in accordance with the
                   requirements of Title 40 CFR § 35.6705(b).

               3. 	 Require CDPHE to implement written controls and procedures to ensure
                    that the date, time and place of all bid openings are designated in all future
                    RFPs as required by of State of Colorado Procurement Rule R-24-103-
                    202a-08 (b).

               4. 	 Require CDPHE to implement written controls and procedures to ensure
                    that language is included in all future bid proposals and contracts as
                    required by Title 40 CFR Part 35, Subpart O.

               5. 	 Require CDPHE to modify the CMGC and A/E contracts awarded under
                    the CA to include the 10-Year Records Retention language as required by
                    Title 40 CFR § 35.6705(b) and the contract language requirement under
                    Title 40 CFR § 35.6550.


Agency and Recipient Comments
            OG&C issued a draft report on June 13, 2013 and provided copies to CDPHE, 

            Region 8 and the OIG. We received comments on the draft report from CDPHE 

            on July 29, 2013. Region 8 did not provide a written response. The exit 

            conference was conducted with CDPHE, Region 8 and OIG on August 15, 2013 

            via teleconference. 


            CDPHE provided a general response to address multiple findings and also

            provided specific responses to other findings as appropriate to respond to other 

            issues or to provide additional information. Out of the four findings and six 

            recommendations, CDPHE concurred with only one finding and the related 

            recommendations regarding missing required language in the bid proposals and 

            contracts. CDPHE did not concur with the remaining findings and 

            recommendations.


            In its general response, CDPHE stated that the 40 CFR Part 35 regulations apply 

            only to the recipient and not to the recipient’s contractor. CDPHE stated that their 

            procurement process ended when the CMGC contract was awarded. 


            In its response to finding 1a regarding the lack of a cost or price analysis for the 

            A/E contract, CDPHE disagreed that a noncompetitive contract was awarded. 

            In its responses to findings 1b, 1c, and finding 2, CDPHE referenced to its general 

            response, which states that the requirements do not apply. 


            In its response to finding 3 regarding the lack of accident and catastrophic loss 

            insurance by some subcontractors, CDPHE stated that CDPHE has no duty to 

            require subcontractors to provide this insurance. CDPHE concurred with 



14-R-0032                                                                                         10
            finding 4 related to the omission of specific required language in some bid
            proposals and contracts.

            The full text of CDPHE’s written response is attached in Appendix A.

Ollie Green & Company Response
            We disagree with CDPHE’s position that 40 CFR Part 35 regulations cited in the
            report apply only to the recipient and not to the recipient’s contractor. Under the
            procurement system standards of 40 CFR § 35.6650(a)(1), the state is required to
            comply with some of the procurement requirements under Subpart O in addition
            to the basic procurement policies and procedures described in 40 CFR § 31.36(a),
            which allows the state to follow its own procurement policies. Some of these
            additional Subpart O requirements include 40 CFR § 35.6565(d) and 40 CFR §
            35.6550(b), which requires the state to ensure that its contractors comply with the
            cost or price analysis requirements under 40 CFR § 35.6585. We do not agree
            with CDPHE’s assertion that the procurement process ended upon award of the
            contact because CDPHE had the responsibility to ensure contractor compliance
            with applicable contracting and subcontracting requirements of 40 CFR Part 35,
            as detailed in Appendix A Notes 3 to 6.

            Regarding CDPHE’s response to finding 1a related to the lack of a cost or price
            analysis for the A/E contract, it is important to note that this finding does not take
            issue with the method of procurement for the contract. We acknowledge that the
            Federal and State regulations and statutes provide for use of the same engineer.
            The audit issue is the lack of a cost or price analysis. Title 40 CFR § 35.6585 (a)
            states that “the recipient must conduct and document a cost or price analysis in
            connection with every procurement action …” Awarding a follow-on contract is a
            procurement action; therefore, cost or price analysis is required. During the audit
            CDPHE stated that it performed the cost analysis but did not retain it. The data
            provided in CDPHE’s response is a justification for the use of the same engineer
            but is not a cost analysis. These costs were questioned in the report because
            CDPHE could not provide a cost or price analysis for the A/E contract, as
            required. No change is made to this audit finding.

            We disagree with CDPHE on findings 1b and 1c that the cost or price analysis
            requirement does not apply to contract modifications and subcontract awards.
            Title 40 CFR § 35.6585 (a) states that “the recipient must conduct and document a
            cost or price analysis in connection with every procurement action including
            contract modification.” In addition, 40 CFR § 35.6550(b) (4) states that the
            recipient must require its contractor to comply with the requirements in
            40 CFR § 35.6610, which includes the cost or price analysis requirement under
            40 CFR § 35.6585. Therefore, the cost or price analysis requirement applied to
            contract modification and subcontract award. No change has been made to this
            audit finding.


14-R-0032                                                                                       11
            We disagree with CDPHE on finding 2 that the bid opening requirements do not
            apply. As stated in the draft report, State of Colorado Procurement Rule R-24-
            103-202b-08 specifies that “bids and modifications shall be opened publicly, in
            the presence of one or more witnesses, at the time and place designated in the
            Invitation for Bids.” CDPHE’s response did not resolve this issue.

            We agree with CDPHE’s position on Finding 3 that they are not responsible for
            ensuring subcontractor insurance for accident and catastrophic insurance
            coverage. This finding and the related recommendation will be deleted from the
            report.

            No change has been made to audit finding 4 regarding omission of specific
            required language in some bid proposals and contracts because CDPHE concurred
            with this finding.

            Details of our responses to CDPHE’s comments are embedded as text boxes in
            Appendix A.




14-R-0032                                                                                 12
                                                                                    Appendix A

                CDPHE’s Response to the Draft Report




July 23, 2013

Mr. Ollie Green
Ollie Green & Company
1300 S. Fourth Street, Suite 100
Louisville, Kentucky 40208

RE: 	 Audit of American Recovery and Reinvestment Act Cooperative Agreement No.
      2S-97842001 Awarded to the Colorado Department of Public Health and
      Environment - CDPHE Response to Draft Audit Report.

Dear Mr. Green: 

Attached please find Colorado Department of Public Health and Environment’s (“CDPHE”) 

response to your June 13, 2013 Draft Report regarding the Audit of American Recovery and 

Reinvestment Act, Cooperative Agreement No. 2SS-97842001, Awarded to the Colorado 

Department of Public Health and Environment”, EPA Recovery Act audit of Cooperative 

Agreement No 2S-97842001, for the Summitville Mine Superfund Site.

CDPHE appreciates the opportunity to respond and provide additional information and 

clarification before you finalize the audit report. CDPHE reserves the right to supplement this 

response as CDPHE further reviews the material or if additional information becomes available. 

If you have any questions regarding this response, please contact me at 303-692-3404.


Sincerely, 


Douglas C. Jamison

Superfund/Brownfields Unit Leader 

Hazardous Material and Waste Management Division





14-R-0032                                                                                     13
                    Summitville Recovery Act Procurement Audit 

                      Cooperative Agreement No. 2S-97842001 

                      CDPHE Response to Draft Audit Report 

                                   July 23, 2013 

In the draft report for the “Audit of American Recovery and Reinvestment Act, Cooperative
Agreement No. 2SS-97842001, Awarded to the Colorado Department of Public Health and
Environment”, the auditor acknowledges CDPHE generally complied with Colorado’s state
procurement policies and procedures and substantially complied with 40 CFR Part 35 Subpart O.
However, the draft audit report also identifies areas where the auditor concluded that CDPHE
failed to comply with either State procedures and/or the Subpart O, requirements. The issues for
which the auditor has determined non-compliance are listed below.
Audit Findings

Finding 1:     CDPHE Did Not Always Comply With Cost or Price Analysis Requirements
      1a)      Architectural Engineer Contract
      1b)      Modifications to the CMGC Contract
      1c)      Subcontract

Finding 2:   CDPHE Did Not Include Language in Bid Proposals Designating the Date,
Time and Place of Bid Openings

Finding 3:    CDPHE Did Not Ensure That the CMGC Required All Subcontractors to Have
Accident and Catastrophic Loss Insurance Coverage

Finding 4:    CDPHE Did Not Always Ensure That Required Language Was Included in Bid
Proposals and Contracts

Although CPDHE agrees that certain specific audit findings are correct, CDPHE also
maintains that many of the audit findings are based on the auditors interpretation that the
State’s procurement policies, as well as the 40 CFR Part 35 Subpart O, requirements
(hereinafter referred to as Subpart O, requirements), are applicable not only to CDPHE as
the grant recipient, but also to contractor’s that CPDHE has hired as the result of a valid
procurement process. In our long experience of administering Federal CERCLA grants,
CDPHE has not encountered this interpretation of the federal procurement requirements.

Since many audit findings seem based upon this incorrect interpretation, CDPHE has prepared a
general response to address multiple audit findings, and specific responses as appropriate to
respond to other issues or to provide additional information.




14-R-0032                                                                                     14
CDPHE General Response

It is CDPHE’s position that the auditor has an incomplete and incorrect understanding of the
contract vehicle used by CDPHE to deliver the goods and services necessary to construct the
Summitville Water Treatment Facility. As a result, the auditor has incorrectly concluded that
certain regulations are not only applicable to CDPHE as the grant recipient, but are also
applicable to procurement activities conducted by the recipient’s contractor. The specific
regulations cited in the audit report, without exception, refer to requirements for the grant
recipient only, and make no mention of these requirements applying to contractors. Because
many of the audit findings refer to activities conducted by the contractor, CDPHE disagrees with
these findings.

On page two of the draft report in the second paragraph under the section titled “Scope and
Methodology”. In this paragraph the auditor states, “Because CDPHE used a Construction
Manager/General Contractor (CMGC) vehicle to administer and perform the work required by
the CA, most contract management responsibilities required by the CA were delegated to the
CMGC.” This statement incorrectly implies that CDPHE has delegated all of it authorities to the
CMGC when it has not, and that the CGMC is, in effect, acting as the State’s agent in
performance of the work. This is also incorrect because the CMGC contract is simply another
contract delivery mechanism, which CDPHE has maintained its contract management and
oversight responsibilities and not delegated those responsibilities to the CMGC.

  IPA Response 1. As there is no audit issue related to this information, we omitted the sections
  of this sentence in the report which were of concern to CDPHE.

Procurement of the CMGC followed the requirements of 40 C.F.R. §35.6565. CDPHE awarded
a contract with guaranteed maximum price (essentially a fixed priced contract) as required by
both 40 C.F.R. §35.6565(1) (iv) and §24-103-202(7) of the Colorado Procurement Code. Under
the CMGC contract, the contractor was solely responsible for performing the required work. As
with any contract, CDPHE maintained responsibility for overseeing the contractor and ensuring
that the work was performed in compliance with the contract. CDPHE delegated none of its
authority of responsibility by procuring the CMGC.

Once the contract was awarded, the contractor selected sub-contractors and purveyors best suited
to assist with project delivery. The fact that the sub-contractors and purveyors were selected
using a series of requests for proposal and competitive bids is a function of the contract vehicle,
not of CDPHE conducting additional procurement actions. CDPHE’s procurement process
ended when Moltz Construction was awarded the CMGC contract. For the purposes of project
construction, CDPHE’s only contractual relationship was with Moltz. CDPHE did not have a
contractual relationship with any of the sub-contractors identified in the audit report.

During the past 25 years that CDPHE has administered federal CERCLA grants and associated
contracts, our experience has been that the 40 C.F.R. § 35 requirements apply only to the grant
recipients. The auditor’s interpretation that these federal requirements also apply to a
contractor’s procurement activities is inconsistent with our experience or any guidance or


14-R-0032                                                                                        15
instruction provided by EPA Region VIII. Furthermore, the State’s procurement code, which is
structured to comply with federal requirements, does not to require State Agencies to direct the
procurement activities that general contractors use to procure subcontractors and purveyors.
While we expect that our general contractors will use sound procurement procedures in the
selection of sub-contractors, this is not area in which CDPHE dictates procurement procedures.


 IPA Response 2. We disagree with CDPHE’s position that the regulations cited in the report
 apply only to the recipient and not to the recipient’s contractor. Under the procurement system
 standards of 40 CFR § 35.6650(a)(1), the state is required to comply with some of the
 procurement requirements under Subpart O in addition to the basic procurement policies and
 procedures described in 40 CFR § 31.36(a), which allows the state to follow its own
 procurement policies. Some of these additional Subpart O requirements include 40 CFR §
 35.6565(d) and 40 CFR § 35.6550(b), which requires the state to ensure that its contractors
 comply with the cost or price analysis requirements under 40 CFR § 35.6585. These
 requirements will be further explained in the detailed sections in Note 3 through 6 below.

CDPHE Response to Finding 1a

Architectural Engineer Contract

CDPHE’s general response is not applicable to this finding. However, for the reasons described
below, CDPHE disagrees with the auditor’s conclusion that a non-competitive contract in the
amount of $806,250 was awarded.

The auditor correctly notes that, in 2002, CDPHE conducted a qualification based selection
process, which resulted in the selection of Resource Technologies Group (RTG) to design a
water treatment plant to remove metals from mine water at the Summitville Mine Superfund
Site. While under contract to CDPHE, RTG was purchased by Golder Associates Inc, causing
Golder to become RTG’s legal and contractual successor. Design was completed in 2004. Due
to the lack of federal funds, project construction was delayed.

In 2009, in anticipation of potential future availability of construction funding, CDPHE began
evaluating the need to procure engineering and design services to update the 2004 design and
provide construction oversight. CDPHE performed cost analyses as part of our consideration of
an appropriate process to procure the necessary services. The results of these analyses are
documented in two internal memos previously provided to the auditor. However, during our
evaluation of the procurement process for the 2009 A/E Contract, we discovered specific
provisions within Colorado Statues which state that there is no need for a competitive procurement
process when using prior existing plans. Colorado Revised Statues § 24-30-1407 states:

      “24-30-1407 Prior existing design plans. Notwithstanding any other provision of this
      part 14 or of part 13 of this article, there shall be no public notice requirement or
      utilization of the selection process as provided for in this part 14 or in part 13 of this
      article for projects in which the state agency is able to reuse existing drawings,
      specifications, designs, or other documents for a prior project.”


14-R-0032                                                                                          16
Consistent with this statute, CDPHE program staff recommended contracting with Golder to
revise the existing design and provide construction oversight. This recommendation was vetted
and approved through a system of internal and external reviews. The specific memo outlining
CPDHE’s use of this provision of state statute and justifying our decision is included as
Attachment A.

CDPHE’s action comports with the plain language of the statute, that a valid competitive
procurement process used to develop design plans remains applicable to subsequent contracts
with the architect/engineer that produced the plans. In essence, subsequent contracts
implementing the design produced under the original and valid selection process are allowable as
a continuation of the original procurement process. Since CDPHE completed a valid selection
for the original design contract, CDPHE has complied with applicable Colorado Procurement
Code provisions and the federal regulations.


 IPA Response 3. In response to CDPHE’s position that this is not a noncompetitive contract,
 we have removed the noncompetitive contract language from the body of the report. This
 finding does not take issue with the method of procurement for this contract. We
 acknowledge that the Federal regulations and State statutes provide for use of the same
 engineer. The audit issue is the lack of a cost or price analysis for the A/E contract. Title 40
 CFR § 35.6585 (a) states that “the recipient must conduct and document a cost or price
 analysis in connection with every procurement action …” During the audit CDPHE stated
 that it performed the cost analysis but did not retain it. The data provided in CDPHE’s
 response is a justification for the use of the same engineer, not a cost analysis. These costs
 were questioned in the report because CDPHE could not provide a cost or price analysis for
 the A/E contract, as required. No change is made to this audit finding.


CDPHE Response to Finding 1b

Modifications to the CMGC Contract


CDPHE disagrees with this finding for reasons outlined in our “General Response” 


 IPA Response 4. CDPHE’s general response does not adequately address this finding which
 relates to requirements of the recipient when modifications are made to a contract. Title 40
 CFR § 35.6585 (a) states that “the recipient must conduct and document a cost or price
 analysis in connection with every procurement action including contract modification.”
 Because CDPHE could not provide a cost or price analysis for the Moltz contract
 modifications, no change is made to this audit finding.




14-R-0032                                                                                           17
CDPHE Response to Finding 1c

Subcontract


CDPHE disagrees with this finding for reasons outlined in our “General Response” 



 IPA Response 5. We disagree with CDPHE’s general response that the cost or price analysis
 requirement cited in the draft report does not apply to these subcontracts. Under the procurement
 system standards of 40 CFR § 35.6650(a)(1), the state is required to comply with some of the
 procurement requirements under Subpart O in addition to the basic procurement policies and
 procedures described in 40 CFR § 31.36(a), which allows the state to follow its own
 procurement policies. One of these additional Subpart O requirements the state needs to follow
 is 40 CFR § 35.6550(b). Title 40 CFR § 35.6550(b) (4) states that the recipient must require its
 contractor to comply with the requirements in 40 CFR § 35.6610, which includes the cost or
 price analysis requirement under 40 CFR § 35.6585.The audit finding addressed the lack of a
 cost or price analysis for only those subcontracts which were non-competitive. As cost or price
 analysis was not done, no change is made to this finding.


CDPHE Response to Finding 2

CDPHE disagrees with this finding for reasons outlined in our “General Response”



 IPA Response 6. Our position remains unchanged. Although CDPHE indicated that it used its
 general response to support its position on this finding, the general response is not applicable for
 this finding. As discussed in the draft report, we could not verify that CDPHE had included
 language in its Request for Proposals designating the date, time and, place where the Bids would
 be publicly opened. However, the criteria we used to support this finding in our draft report was
 not based on Subpart O provisions. We cited this finding based on State of Colorado
 Procurement Rule R-24-103-202b-08 that specifies that “bids and modifications shall be opened
 publicly, in the presence of one or more witnesses, at the time and place designated in the
 Invitation for Bids.” Our audit identified the CMGC contract, six subcontracts and, eight
 contract modifications where the RFPs did not include date, time and place of bid opening.
 CDPHE’s response did not resolve this issue.


CDPHE Response to Finding 3

The auditor references 40 C.F.R. § 35.6590(b) yet his comments seem to refer to 40 C.F.R.
§35.6590(c), which reads as follows:
       (c) Accidents and Catastrophic Loss. The recipient must require the contractor
       (emphasis added) to provide insurance against accidents and catastrophic loss to manage
       any risk inherent in completing the project.


14-R-0032                                                                                        18
CDPHE submitted information to the auditor demonstrating the contractor provided the required
insurance. Based on the clear reading of the regulation, CDPHE has no duty to require
subcontractors to provide insurance against accidents or catastrophic loss. Rather, consistent
with regulatory requirements, that relationship is between the contractor and its subcontractors,
so long as the contractor fully insures the project, as has been demonstrated.


  IPA Response 7. We concur that the requirement per 40 CFR § 35.6590 (b) is for the
  contractor and not the subcontractor. This finding and related recommendation have been
  deleted from the audit report.


CDPHE Response to Finding 4

CDPHE agrees with the finding that certain specific required language was omitted from some
bid proposals and contracts. As CDPHE has previously informed the auditor, CDPHE’s typical
process is to include, as part of proposals and contracts, an exhibit that outlines the Subpart O
requirements. This exhibit is included with this response as “Attachment B”. It appears as
though the standard Exhibit was replaced by an Exhibit that outlined the American
Redevelopment and Recovery Act” (Recovery Act) requirements for the contract. The Recovery
Act exhibit contained many, but not all of the Subpart O
requirements.


  IPA Response 8. CDPHE concurred with the finding. No change has been made to this audit
  finding.

CDPHE Response to Recommendations

Due to the disagreement with many of the audit findings, CDPHE also disagree with most of the
auditor’s recommendations. Specifically, we disagree with recommendations 1 – 4.
Furthermore, regarding recommendation number one, it is important to point out that EPA’s
investment of funds for this project directly resulted in successful completion of the Summitville
Water Treatment Facility, and related improvements to the long term operational efficiency of
the Summitville Site. This project is also expected to result in long term improvements in water
quality for the Alamosa River drainage basin. The cooperative agreement objectives have been
met and the projects costs were consistent with the Engineer’s estimate. Therefore, requiring
CDPHE to reimburse EPA $2.6 million would be inappropriate and improper since CDPHE met
the project objectives and followed applicable requirements. Even if the auditor maintains the
disputed findings, requiring reimbursement would be inappropriate considering Region VIII’s
full knowledge and agreement with CDPHE’s actions.

As noted throughout this response, the extension of Subpart O requirements to include
procurement activities conducted by the State’s contractor is inconsistent with CDPHE’s
experience and standard practices over the last 25 years. However, because the auditor has


14-R-0032                                                                                       19
identified several issues where changes in grants administration and contract management could
avoid potential ambiguities and uncertainties in the future, CDPHE welcomes the opportunity to
meet with Region VIII to discuss potential methods for improving our overall grant
administration.


  IPA Response 9. Our position for five of the six recommendations remained unchanged.
  We agreed to delete the finding and related recommendation related to the catastrophic
  insurance issue. As discussed in Notes 2 through 6 above, CDPHE did not follow all
  applicable procurement requirements; therefore, we have continued to question the costs and
  recommend for cost recovery.




14-R-0032                                                                                       20
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                               Planned
    Rec.    Page                                                                                              Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1      Action Official          Date      Amount      Amount

     1        9     Require CDPHE to reimburse the EPA $2,593,495            U             Region 8                         $2,593
                    ($806, 250 + $1,542,000 + $245,245) for the A/E                  Regional Administrator
                    contract, two CMGC contract modifications and
                    one subcontract where cost analyses were not
                    provided for all procurements as required by Title
                    40 CFR § 35.6585(a) and 40 CFR § 35.6565(d) (2),
                    unless CDPHE provides documentation to
                    demonstrate that the prices for these contracts and
                    subcontracts are fair and reasonable.

     2        9     Require CDPHE to implement written procedures            U             Region 8
                    and controls to ensure that a cost or price analysis             Regional Administrator
                    is conducted for each future noncompetitive
                    contract awarded in accordance with the
                    requirements of Title 40 CFR § 35.6585(a) and
                    40 CFR § 35.6565(d) (2) and to retain copies of all
                    cost or price analyses conducted and other CA
                    records in accordance with the requirements of
                    Title 40 CFR § 35.6705(b).

     3       10     Require CDPHE to implement written controls and          U             Region 8
                    procedures to ensure that the date, time and place               Regional Administrator
                    of all bid openings are designated in all future
                    RFPs as required by of State of Colorado
                    Procurement Rule R-24-103-202a-08 (b).

     4       10     Require CDPHE to implement written controls and          U             Region 8
                    procedures to ensure that language is included in                Regional Administrator
                    all future bid proposals and contracts as required
                    by Title 40 CFR Part 35, Subpart O.

     5       10     Require CDPHE to modify the CMGC and A/E                 U             Region 8
                    contracts awarded under the CA to include the                    Regional Administrator
                    10-Year Records Retention language as required
                    by Title 40 CFR § 35.6705(b) and the contract
                    language requirement under Title 40 CFR §
                    35.6550.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





14-R-0032                                                                                                                                    21
                                   Distribution
Regional Administrator, Region 8
Deputy Regional Administrator, Region 8
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Audit Follow-Up Coordinator, Office of Grants and Debarment,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 8
Grants Management Officer, Region 8
Executive Director, Colorado Department of Public Health and Environment




14-R-0032                                                                  22
